OFFICE OF INSPECTOR GENERAL ·                                               · U.S. DEPARTMENT OF THE INTERIOR


                                    RECOVERY OVERSIGHT OFFICE
                                               Washington, DC 20240

     Recovery Oversight Advisory – Lack of Clarity on Certain Project Elements
     in Department Recovery Act Guidance
              The Department issued “Economic Recovery Template and Guidance for Project Lists”
     on February 20, 2009 that included general guidance and an excel spreadsheet template in which
     to list projects and several data elements—outlined in the guidance—for each project.1 The
     spreadsheet contains several data fields—explained in the guidance—for each project. One of
     the data fields is “project element,” which includes components of projects that have been
     presented verbally to the bureaus as “Secretary’s priorities.” Three project elements include
     “national icon,” “treasured landscape,” and “youth.” Bureaus are to identify proposed projects
     that include these elements with an affirmative checkmark in the respective column of the
     template. The guidance provides little direction regarding the specific definitions of or types of
     projects that might be characterized as having a youth, treasured landscapes, or national icon
     component.

             Lack of clarity on these project elements could lead to inconsistent classification of
     projects as “youth,” “national icon,” and “treasured landscape.” For example, the National Park
     Service – in draft project lists shared with us – identified only 29 out of 963 projects as having a
     “national icon” component and none as having a “treasured landscape” component. This
     categorization may be accurate but it is surprising, given the NPS charge, as identified in the
     Organic Act of 1916, which created it:

             …the Service thus established shall promote and regulate the use of Federal areas
             known as national parks, monuments and reservations…by such means and
             measures as conform to the fundamental purpose of the said parks, monuments
             and reservations, which purpose is to conserve the scenery and the natural and
             historic objects and the wild life therein and to provide for the enjoyment of the
             same in such manner and by such means as will leave them unimpaired for the
             enjoyment of future generations.

     This observation is not meant to suggest the NPS project classifications are inaccurate – we did
     not do a thorough review of each project to make such a determination. We merely intend to
     provide an example of the potential for inconsistent application of the categories “national icon”
     and “treasured landscape.”

             The “youth” category is centered around jobs. One of the key purposes of the Recovery
     Act is “to preserve and create jobs and promote economic recovery.” The Act encourages the
     Department of the Interior to employ young adults through various organizations and

     1
       Data elements include, among others, fiscal year in which deferred maintenance or line item constructions projects
     are planned for funding in the bureau five year plans; state; project elements (including health and safety, energy
     efficiency/green buildings, use of renewable energy sources, youth/community service, national icons, and treasured
     landscapes); proposed procurement instrument; NEPA compliance completed; permitting and consultation
     completed.
                                                                                              ROO-ROA-MOA-1003-2009
partnerships “where practicable” (Section 702). However, direction on when to characterize
projects as having a youth component, how to implement the vision of including in youth in
projects, and how to measure progress toward accomplishing this vision remain unclear.

        The Department has established a youth subgroup of its Recovery Act Task Force to
address some of these concerns. Despite the efforts of this group, the meaning of “youth” still
remains unclear. For example, based on initial meetings of this subgroup, confusion exists over
the basic definition of “youth” in terms of the age – does youth include individuals between the
ages of 15 and 24 or between the ages of 18 and 25? The lack of clarity on such a basic
definition suggests that there could be a lack of consistency in projects classified as “youth” on
the project lists.

         It is also unclear how the youth component of Recovery Act activities coincides and
supports the Secretary’s vision for increasing youth participation in Departmental programs, a
vision communicated verbally to senior leaders in the Department. For example, an emphasis on
short-term inclusion of youth laborers for activities such as trail maintenance would likely
require a different strategy, different resources, and a different focus than engaging youth in
efforts that can lead to longer-term employment. Either type of encounter with the
Department—short-term engagements or longer-term employment—acquaint young individuals
with opportunities in the Department and provide employment opportunities. However, each
approach requires a different strategy. Without additional clarity, the Department, its bureaus,
and programs are at risk of not fulfilling the Secretary’s vision regarding youth engagement in
Department efforts.

        The implementation and realization of the Secretary’s vision of engaging youth is further
complicated because the majority of projects will be completed through procurement vehicles
such as grants, cooperative agreements, and contracts. For example, if one vendor or applicant
explicitly identifies a strategy to employ youth, does that factor into the source selection plan? Is
such a strategy legal? We believe that additional guidance from the Department can help to
ensure consistency in the approach taken for implementing the Secretary’s vision for youth and
to ensure compliance with applicable laws and regulations.

       There is also lack of consensus on what data could or should be collected to measure
progress in meeting youth employment goals. The reliance on procurement vehicles to
implement Recovery Act projects complicates such data collection because less data exists on
individuals employed to implement a project through such vehicles. Additionally, the
Department must factor into data collection standards the nature of the work in which youth
might be employed—on a daily or weekly basis rather than longer-term. Finally, there may be
multiple levels of sub-recipients, and obtaining information from them on youth could prove
even more challenging. In sum, little clarity exists on how to standardize a measure for youth
employment, what information on age can be collected from recipients of federal funds, and
from how many sub-recipient levels to require this information.




                                                                           ROO-ROA-MOA-1003-2009
OFFICE OF INSPECTOR GENERAL ·                                        · U.S. DEPARTMENT OF THE INTERIOR


                                 RECOVERY OVERSIGHT OFFICE
                                           Washington, DC 20240

     Recovery Oversight Advisory – Observations on Initial Project

             The Department and the bureaus that received funding under the Recovery Act have
     engaged in significant efforts to identify projects that will be funded with Recovery Act
     appropriations. The Recovery Act provides $1 billion for the Bureau of Reclamation (BOR);
     $750 million for the National Park Service (NPS); $500 million for Bureau of Indian Affairs
     (BIA); $320 million for the Bureau of Land Management (BLM); $280 million for the U.S. Fish
     and Wildlife Service (FWS); and $140 million for the U.S. Geological Survey (USGS). The Act
     appropriates an additional $490 million to the Department of Transportation for Interior roads, as
     well as funding in other Departments that will consult with Interior on allocation.

            Each bureau that received funding under the Recovery Act developed a project list (or
     multiple lists)—as instructed by the Department in guidance issued February 20, 2009—and
     submitted them to the Department and then to the Office of Management and Budget for review.
     We commend the Department and bureaus for their diligence, and we thank you for the
     opportunity to review these lists and provide our observations.2

             We realize that the lists are evolving, and that the Department, bureau, or program level
     may have addressed some of the concerns identified below based on feedback we and others
     have provided. Given the pace at which activities are occurring under the Recovery Act,
     however, we feel it is prudent to provide these observations as timely as possible. We also
     realize that the Department and bureaus may have adequate justification for some areas we
     highlight as being of concern, and encourage officials to provide transparent explanations of the
     project selection process in program-specific and agency-specific plans mandated in the Office
     of Management and Budget’s “Updated Implementing Guidance for the American Recovery and
     Reinvestment Act of 2009” (issued April 3, 2009).

     Project Readiness – The Role of Permitting, Tribal Consultation,
     and Acquisition Planning

             Obligating funds in a timely manner is a key success factor in meeting the objective
     under the Recovery Act of jumpstarting the economy. The Act sets forth a goal of using 50
     percent of funds on projects that can be initiated within 120 days of enactment. Additionally, the
     Act requires all funds to be obligated by September 30, 2010. This requirement can pose a
     significant challenge, particularly given lead time needed for environmental reviews, tribal
     consultation requirements, acquisition planning and execution, and other project planning steps.
     The data, or lack thereof, contained in the bureau project lists we received for review raise some
     concerns over the readiness of projects. We describe these concerns below.


     2
      The data we reviewed included only Central Utah Project Completion Act projects from BOR. Other BOR
     projects were not included in the original data that we analyzed.
                                                                                         ROO-ROA-MOA-1004-2009
        Permitting and Consultation Requirement. Various federal laws and regulations impose
permitting and other requirements on federal projects. For example, the National Historic
Preservation Act, as amended, of 1966 requires all federal agencies to “take into account” the
effects of their undertakings on historic properties (Section 106). Additionally, multiple
executive orders and policies require consultations with tribal governments to respect the
sovereign status of those governments. The Department’s project template requires the bureaus
to indicate whether such requirements were met for each project. There are approximately 1,114
projects (27 percent) on the lists we analyzed for which, according to the data on the lists, such
permitting and consultation are incomplete. BLM’s list indicates that about 40 percent of its
projects lack the necessary permits and consultations. This reported deficiency could impact the
timeliness of project completion.
        Acquisition Planning. The project list template lacks information on whether acquisition
planning has been completed for each of the projects. The majority of Recovery Act funds will
be awarded through contracts and other procurement vehicles. The Recovery Act and the
administration have placed increased emphasis on the importance of effective and compliant
contracting. OMB’s updated implementing guidance specifically highlights the need for
“heightened management attention on acquisition planning” (Section 6.1). Lack of sufficient
acquisition planning may add lead time to the projects; could increase risk to meeting cost,
schedule, and performance targets; and could lead to other adverse outcomes. It is not clear from
project lists whether acquisition planning has been completed.
        For example, on the NPS list, the second and third most costly projects—projected to cost
nearly $48.5 million—are in the National Capital Region to repair and restore the Lincoln
memorial reflecting pool and the Jefferson memorial plaza. Another project, estimated to cost
approximately $3 million, is to replace heating/cooling and water equipment in 80 national parks
across the country. Particularly for large and geographically disbursed projects such as these,
effective acquisition planning and administration is critical. It is unclear whether the NPS
completed acquisition plans—which document cost and life-cycle costs; cost, schedule, and
performance constraints; performance standards; risks; prospective sources; plans to seek,
promote, and sustain competition; source selection procedures; and other factors critical to a
successful acquisition—for these projects. It is also unclear whether consideration has been
given to contract administration, including identifying trained contracting officer technical
representatives and other steps to ensure appropriate agency oversight at critical decision points.
        We do not mean to imply that the NPS or other bureaus have failed to perform sufficient
planning for these projects. Rather, it is unclear from the documentation provided on proposed
projects whether such planning has been completed. Given the tight timeframes under the
Recovery Act, the Department and its bureaus will need to demonstrate increased diligence to
avoid violating acquisition rules and regulations, which are designed to safeguard federal
resources but can add time to project completion. As the Department moves forward from
project approval to implementation, sufficient attention should be given to ensuring bureaus
engage in effective contracting practices that are compliant with applicable rules and regulations.
This effort should include ensuring contracting offices have sufficient personnel and support to
handle an increased workload.




                                                                          ROO-ROA-MOA-1004-2009
Relationship of Recovery Act Projects to Five-Year Plans
         Ensuring the bureaus initiate “shovel-ready” projects has also been a challenge when
balancing this need for timeliness with the direction to undertake priority projects already vetted
on the bureaus’ “Five Year Plans.” The five year plans are developed based on a rigorous
process that includes calculating a score for each project based on factors such as the importance
of a constructed asset to the mission, critical health and safety, resource protection, and
sustainable buildings. The majority of projects proposed on the project lists we reviewed are not
on the bureau’s five-year plans. For example, based on the project lists we reviewed, only 11
percent of the NPS proposed projects are on its five-year plan; only 6 percent of USGS’s are on
its plan; and 14percent of BLM’s are on its plan.
        Based on conversations we have had with Departmental and bureau officials, we
understand justifications exist for these percentages. For example, not all projects on the five
year plans are “shovel-ready.” The project lists also continue to undergo revision, and five year
plans are one area under consideration in the revision process. Whatever the outcome of the
final project lists, we believe it is vital that the Department and bureaus are transparent about the
project selection process, including why they made decisions to include or not include projects
from the five year plans. Such information could be provided to OMB and the public in the
program specific plans mandated by OMB’s Updated Implementing Guidance (Section 2.8).
Inconsistencies and Gaps in Data

        We identified several instances in which the bureaus either failed to provide the required
data, or the data provided was inconsistent with the Department’s guidance. We believe
correcting these inconsistencies and data gaps will help to ensure transparency and effective
oversight now and in the future.

        The Department, in its guidance to the bureaus, “strongly suggest[s] that each bureau
submit project lists that are greater than the funding level provided in the [Recovery Act] so as to
negate the need to obtain a second round of approvals should some projects fall off the list.” All
bureau lists we reviewed followed this guidance. However, some bureaus and programs,
including BIA, NPS, BLM, and Wildfire Management, did not clearly distinguish which projects
were intended to serve as contingency projects if other projects “fall off the list.” To ensure
financial accountability and full transparency under the Recovery Act, we believe it is prudent to
distinguish projects which the bureaus believe will be completed with Recovery Act funds from
the contingency projects identified.

        We also found several cases in which information was missing or incorrectly entered into
the spreadsheets. The Department’s guidance clearly states in bold that “all columns in the
template must be completed for all projects with data or N/A as per the detailed instructions – no
blank cells.” However, the project list spreadsheets from several bureaus included blank spaces
in many cells. For instance, the “Time to Complete Projects” column contained blank cells for
110 of the total 4,057 projects on the lists we reviewed (approximately 3 percent). While 3
percent is not a large percentage, time to complete projects is critical to ensure the bureaus
achieve the expedited timeframes mandated by the Recovery Act.

       We also identified problems with the project list categories “NEPA [National
Environmental Policy Act] Compliance” and “Permitting/consultation.” Several bureaus used
                                                                            ROO-ROA-MOA-1004-2009
additional categories, besides those assigned by Departmental guidance, for both the “NEPA
compliance” and “permitting/consultation” columns. For example, BLM included 38 separate
designations in the NEPA compliance column, while Departmental guidance provided 4
categories. Similar lack of consistency occurred with the “permitting/consultation” column.
Compliance requirements such as completing environmental assessments can take months and
even years. As the Department and bureaus begin to implement projects, clearly identifying
which projects have such pre-requisite requirements complete will be critical to ensure timely
initiation and completion of projects.

       We identified additional data problems in the following data fields. While these
observations affected only a few projects, it indicates that data integrity may not be consistent
and could limit transparency and the reliability of analysis of projects:

        “State.” The column contained the following state designations, which appear to be
        incorrect: BW, ES, HQ, IMR, MP, TY, and WO (16 total instances).

        “Type of Project.” USGS created a “Type of Project” designation (DP - for data
        processing equipment) for one of its projects.

        “Cost Estimates by Geographic Location.” BLM had $25,469,000 in project dollars (5.6
        percent of the Bureau total) that did not have a designated “Region, Area, or District.”

Bureau-Specific Observations

We note below some bureau-specific observations for consideration:

       National Park Service

        NPS did not identify any proposed projects as Historically Black Colleges and
         Universities, as required by the Department's guidance.

        Projects in ten national parks account for about $350 million, almost half of the Park
         Service’s Recovery Act funding. This distribution of funding may make
         implementation of the Recovery Act more manageable, but also raises questions of
         how allocations were determined. Transparency in project selection will again be
         critical.

        Specificity on projects is inconsistent. For example, for road projects, some parks
         included detailed information on the various road projects proposed in the park for
         implementation, while other parks merely identify that they propose to implement
         projects throughout the park.

       U.S. Geological Survey

        Some projects have no priority listing, and there are 113 projects listed as “number 1”
         priority. We identified lack of prioritization as a problem for NPS in completing
         projects after Hurricane Katrina. Effective prioritization of projects could impact the

                                                                           ROO-ROA-MOA-1004-2009
    success of implementation of Recovery Act projects as well.

 Three projects are listed as noncompliant for NEPA. We question whether a project
  can be completed if it is NEPA noncompliant.

 While 94 percent of projects proposed are not on the five year plan, all deferred
  maintenance projects on the five year plan are being proposed, which is a positive
  observation for the USGS list.

U.S. Fish and Wildlife Service

   The project lists fail to identify a procurement mechanism (i.e., grant, contract,
    cooperative agreement, loan, or tribal “Section 638”) for completion.

   One project, the Rocky Mountain Arsenal, is proposed to be completed in cooperation
    with the Department of Defense. It is unclear whether there is an agreement in place
    with DoD or what the outcome of the project will be with DoD if it fails to commit
    funding.

Bureau of Land Management

   The BLM seems to have allocated funding to states so each state can fund its own
    priorities, rather than identifying a nationwide prioritization strategy.

   One abandoned mine project – Randsburg, estimated to cost $22 million – involves
    relocating a contaminated mine tailings pipe, yet the Bureau marked NEPA as non-
    applicable. This categorization may be accurate, but seems questionable.

   As discussed in the data inconsistencies section of this advisory, not all project
    elements were completed according to Department instructions.

Bureau of Indian Affairs

   Road maintenance projects did not identify a priority for any project, and BIA
    assigned the same title and cost estimate to a number of maintenance projects.

   The project lists indicated that none of the 532 road maintenance projects required
    permitting.

   None of the 532 road maintenance projects was included in the bureau’s five-year
    plan.

   The lists include five school construction projects, estimated to cost $206 million.
    These projects raise concerns about timely completion, scope, and potential for cost
    growth.



                                                                   ROO-ROA-MOA-1004-2009
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
